     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
July 30, 2010

Report Number: A-02-08-01019

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Early Intervention Services Costs Claimed by New
Jersey to the Medicaid Program. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John Madigan, Audit Manager, at (518) 437-9390, extension 224, or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-08-01019 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




      REVIEW OF EARLY
INTERVENTION SERVICES COSTS
CLAIMED BY NEW JERSEY TO THE
     MEDICAID PROGRAM




                      Daniel R. Levinson
                       Inspector General

                          July 2010
                        A-02-08-01019
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY
BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New Jersey, the Department of Human Services (the State agency) administers the Medicaid
program. Pursuant to Attachment 3.1-A of New Jersey’s Medicaid State plan, rehabilitation
services under the early intervention program are limited to services contained in a treatment
plan and provided under the treatment component of Early Periodic Screening, Diagnosis, and
Treatment (EPSDT) to children with disabilities. The State’s EPSDT program is administered
by the Department of Health and Senior Services. The mission of the program is to enhance the
capacity of families to meet the developmental and health-related needs of children who have
delays or disabilities by providing quality services and support to families and their children.

The State agency entered into a contingency fee contract with Covansys Corporation (Covansys)
in February 2004 to administer, manage, and operate a statewide billing and collection system
for early intervention services. According to the terms of the contract, Covansys operated a
centralized finance office and a claims payment system. Early intervention service providers
submitted claims to Covansys, which processed the claims and forwarded them to the State
agency for payment.

The State agency subsequently claimed $11,212,736 ($5,606,368 Federal share) for
reimbursement of early intervention services paid to providers subsequent to 1 year from the date
of service for the period July 1, 2005, through June 30, 2007. The State agency paid Covansys a
contingency fee of 1.55 percent of funds claimed as a result of the contract.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for Federal Medicaid
reimbursement for early intervention services paid to providers subsequent to 1 year from the
date of service and submitted as a result of its contract with Covansys complied with Federal and
State requirements.

SUMMARY OF RESULTS

The State agency’s claims for Federal Medicaid reimbursement for early intervention services
paid to providers subsequent to 1 year from the date of service and submitted as a result of its
contract with Covansys did not always comply with Federal and State regulations. Of the 100
claims in our random sample, 94 complied with Federal and State requirements, but 6 did not.
Of the six noncompliant claims, two claims contained services that were not provided or



                                                 i
supported, and four claims were not timely submitted. These deficiencies occurred because the
State did not effectively monitor the early intervention program for compliance with certain
Federal and State requirements.

Based on our sample results, we estimate that the State agency improperly claimed $108,667 to
the Medicaid program during our audit period July 1, 2005, through June 30, 2007.

RECOMMENDATIONS

We recommend that the State agency:

       •   refund $108,667 to the Federal Government and

       •   improve its monitoring of the early intervention program to ensure compliance with
           Federal and State requirements.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency generally agreed with our findings and
recommendation to improve its early intervention program monitoring. However, the State
agency disagreed with the portion of our recommended refund related to four sample claims
submitted more than 12 months from the date of service because, according to the State agency,
the corresponding providers offered sufficient justification to support a State agency waiver of
the 12-month requirement. The State agency also indicated that it had previously voided one
sample claim that contained services that were not provided or supported and refunded the
Federal reimbursement. Finally, the State agency provided additional documentation for
another claim that contained services that were not provided or supported. The State agency’s
comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that all claims submitted more than 12 months from the date of service are
ineligible for Federal reimbursement without CMS approval. Therefore, these claims are
unallowable. After reviewing the information and additional documentation provided by the
State agency, we revised our findings and modified our statistical estimates accordingly.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              New Jersey Early Intervention System ........................................................1
              Covansys Corporation..................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          SERVICES NOT PROVIDED OR NOT SUPPORTED ........................................4

          CLAIMS NOT TIMELY SUBMITTED .................................................................4

          RECOMMENDATIONS .........................................................................................4

          STATE AGENCY COMMENTS ............................................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................4

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                                   INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to 42 CFR 447.45(d)(1), State Medicaid agencies must require providers to submit all
claims no later than 12 months from the date of service. In addition, pursuant to 42 CFR
447.45(d)(4), State Medicaid agencies must pay all claims within 12 months of the date of
receipt. 1

New Jersey Early Intervention System

In New Jersey, the Department of Human Services (the State agency) administers the Medicaid
program. Pursuant to Attachment 3.1-A of New Jersey’s Medicaid State plan, rehabilitation
services under the early intervention program are limited to services contained in a treatment
plan and provided under the treatment component of Early Periodic Screening, Diagnosis, and
Treatment (EPSDT) to children with disabilities. The State’s EPSDT program is administered
by Department of Health and Senior Services. The mission of the program is to enhance the
capacity of families to meet the developmental and health-related needs of children who have
delays or disabilities by providing quality services and support to families and their children.

Covansys Corporation

The State agency entered into a contingency fee contract with Covansys Corporation (Covansys)
in February 2004 to administer, manage and operate a statewide billing and collection system for
early intervention services. Pursuant to the contract, Covansys operated a centralized finance
office and a claims payment system. Early intervention service providers submitted claims to
Covansys, which processed the claims and forwarded them to the State agency for payment.

The State agency subsequently claimed $11,212,736 ($5,606,368 Federal share) for
reimbursement of early intervention services paid to providers subsequent to 1 year from the date




1
 This time limitation does not apply to retroactive adjustments, claims from providers under investigation for fraud
or abuse, or payments made in accordance with a court order.



                                                         1
of service for the period July 1, 2005, through June 30, 2007. 2 The State agency paid Covansys
a contingency fee of 1.55 percent of funds claimed as a result of the contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for Federal Medicaid
reimbursement for early intervention services paid to providers subsequent to 1 year from the
date of service and submitted as a result of its contract with Covansys complied with Federal and
State requirements.

Scope

Our audit covered early intervention services totaling $11,212,736 ($5,606,368 Federal share)
that were claimed for Federal reimbursement from July 1, 2005, through June 30, 2007. During
our audit, we did not review the overall internal control structure of the State agency or the
Medicaid program. Rather, we reviewed only those internal controls that pertained directly to
the objective of our audit.

We performed our fieldwork from November 2007 through March 2009 at the State agency’s
offices in Trenton, New Jersey.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal and State laws, regulations, and guidance;

    •   reviewed the contingency fee contract between the State agency and Covansys;

    •   obtained a database from the State agency containing 298,994 paid early intervention
        services claims totaling $69,107,868 ($34,553,934 Federal share) 3 submitted as a result
        of its contract with Covansys;

    •   reconciled early intervention services claims to the Form CMS-64s submitted by the State
        agency for the period July 1, 2005, through June 30, 2007;




2
 On January 13, 2010, we issued a report entitled Review of Early Intervention Services Costs Claimed by New
Jersey to the Medicaid Program (A-02-07-01053), which focused on early intervention services paid to providers
within 1 year from the date of service and submitted for Federal reimbursement as a result of the State agency’s
contingency fee contract with Covansys.
3
 This is the net amount (positive claims less adjustments) claimed by the State agency on its Form CMS-64s. For
sample purposes, we excluded negative claims from our population.


                                                        2
       •   eliminated from the database provider claims submitted to the State agency 1 year or
           earlier from the date of service; 4

       •   identified a sampling frame of 39,576 paid early intervention services claims, totaling
           $11,212,736 ($5,606,368 Federal share);

       •   selected a simple random sample of 100 claims from the sampling frame of 39,576; and

       •   for each of the 100 sampled claims, we determined if:

                o the child receiving the related service was enrolled in the Medicaid program;

                o the related service was covered under the NJEIS;

                o the related service was listed in the child’s treatment plan (Individualized Family
                  Service Plan); and

                o the State agency paid the claims within 1 year of the date of receipt.

       •   estimated the dollar impact of the unallowable Federal Medicaid reimbursement paid in
           the population of 39,576 claims.

Appendix A contains the details of our sample design and methodology. Appendix B contains
the details of our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The State agency’s claims for Federal Medicaid reimbursement for early intervention services
paid to providers subsequent to 1 year from the date of service and submitted as a result of its
contingency fee contract with Covansys did not always comply with Federal and State
requirements. Of the 100 claims in our random sample, 94 complied with Federal and State
requirements, but 6 did not. Of the 6 noncompliant claims, 2 claims contained services that were
not provided or supported, and 4 claims were not timely submitted. These deficiencies occurred
because the State did not effectively monitor the early intervention program for compliance with
certain Federal and State requirements.

Based on our sample results, we estimate that the State improperly claimed $108,667 to the
Medicaid program during our audit period July 1, 2005, through June 30, 2007.

4
    We reviewed these claims as part of our prior report.


                                                            3
SERVICES NOT PROVIDED OR NOT SUPPORTED

Pursuant to section 1902(a)(27) of the Act, States claiming Federal Medicaid funding must
document services provided. In addition, pursuant to 42 CFR § 455.1(a)(2), States are required
to have a method for verifying whether services reimbursed by Medicaid were actually
furnished. For 2 of the 100 claims in our sample, the State agency claimed Federal
reimbursement for services that were not provided or not supported.

CLAIMS NOT TIMELY SUBMITTED

Pursuant to 42 CFR § 447.45(d)(1), State Medicaid agencies must require providers to submit
all claims no later than 12 months from the date of service. For 4 of the 100 claims in our
sample, the State agency claimed Federal reimbursement for services for which the provider did
not submit a claim to the State agency within 1 year from the date of service. 5

RECOMMENDATIONS

We recommend that the State agency:

           •   refund $108,667 to the Federal Government and

           •   improve its monitoring of the early intervention program to ensure compliance with
               Federal and State requirements.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency generally agreed with our findings and
recommendation to improve its early intervention program monitoring. However, the State
agency disagreed with the portion of our recommended refund related to four sample claims
submitted more than 12 months from the date of service because, according to the State agency,
the corresponding providers offered sufficient justification to support a State agency waiver of
the 12-month requirement. The State agency also indicated that it had previously voided one
sample claim that contained services that were not provided or supported and refunded the
Federal reimbursement. Finally, the State agency provided additional documentation for
another claim that contained services that were not provided or supported. The State agency’s
comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that all claims submitted more than 12 months from the date of service are
ineligible for Federal reimbursement without CMS approval. Therefore, these claims are
unallowable. After reviewing the information and additional documentation provided by the
State agency, we revised our findings and modified our statistical estimates accordingly.



5
    The sample claims were submitted to the State agency for payment from 405 to 481 days after the date of service.


                                                           4
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all New Jersey Medicaid early intervention services (EIS) claims
paid subsequent to a year after the service date and submitted as a result of the State agency’s
contract with Covansys Corporation (Covansys) during the period July 1, 2005, through June 30,
2007.

SAMPLING FRAME

The sampling frame was an Excel spreadsheet containing 39,576 claims paid subsequent to
1 year after the service date, totaling $11,212,736 ($5,606,368 Federal share) for EIS services
submitted as a result of the State agency’s contract with Covansys during the period July 1, 2005,
through June 30, 2007. The data was supplied by the State and compiled by Covansys.

SAMPLE UNIT

The sampling unit was an individual EIS claim paid subsequent to 1 year after the service date
and submitted for Federal reimbursement as a result of the State agency’s contract with
Covansys.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of EIS claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Audit Services’ statistical software, RAT-STATS, to generate the random
numbers.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the 39,576 claims. After generating 100 random numbers, we
selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                            Sample Details and Results
          Value of                  Value of                      Value of
Claims     Frame                     Sample                      Unallowable
  in      (Federal       Sample     (Federal     Unallowable       Claims
Frame      Share)         Size       Share)         Claims     (Federal Share)
39,576   $5,606,368        100       $14,298           6            $817


         Estimated Overpayment Associated with the Unallowable Claims
              (Limits Calculated for a 90-Percent Confidence Interval)

                      Point Estimate               $323,330
                      Lower Limit                  $108,667
                      Upper Limit                  $537,993
                                    Page 1 of 3


APPENDIX C: STATE AGENCY COMMENTS
Page 2 of 3
Page 3 of 3
